Ifet:Sen ,tp urrultealLEizicT

reme (Lid

-ize -4eafrA7

1_6)144a4talide4)
vognairii eded.- J,
e/.a4reNt3e#/c
'Jed liZejnbe,0 g; a AD al"iceSi ',nat./if a/y/4/A r

Atacei:nee/
41114j
st 77
t

1 a-delre,i/6-4),441t
1/
61)Alle Lk-tic/4ia/-3erni- Lffe-rieel-igeleozet..Q peztteAds ewiem.d.

7.Advidizeipecz4z aedeo-Igett:477, a-W*4 a-4/S-e:*trial toj62
),
Ty eit.cmciosedi dm AVA.A./..adzip...106, ,,,,44}.,

Pu4021-d:
17 de : c4 c2444,)4,zett
, titai et.i _te_A"7e4.2J/
_Lalude ibaiz.1,, I i.,7iiii Ago, AA4z4,44.
1261-07 $,..3 0,14 -770V. aP02,0 ,to -tzfoe,
-7.,L) „di € ate.5.77A&S,:cPti a A ,vdifieie

evu.446

Atkozem
alkitat--aakit-hakit'et?
cvnd eitiz.0-1-24.6:71

acad.

-1747 6 61-7-01 4-tr-e-`447 4sttrrice s . E7n-po

4

,pWriJa.,w)d-

r

a/nch.

i j -C4r741.
ed. il

eemI

4,1--- ilif;LA.aiceayaè.ttk..6 et,v74.tduie,ii
s,,LIte/4412 • , , -,t-i,fr:addeu-nis(cice

1140
6'
,
4
, A-017eorile (9?).44,7-

ooltalb/i
•

m h. -

I entizol. i
(%174iiicic

Aemw,e,j1 Jaw, 627cii.-ze
`.11.-(-1.4) c? date .,61,e
teten awe)14_aznde A).doct j cvid toukt)
atiFs
Aa-_13
44-evidace;a4,49..../aiu-i6,-4 .4-nai
'
-74
f
a nd'
awe

1
,
ap.a7••-•••'
*
/
A
rifi

1

4:0LO
et/P7/7 61

? ailindeS and
' 1';1

dif
' alle /e

iriar/tOZA e
JVJaL

114
e 41° RV
I }d

61
t0

.17,215jelei

01eia'itt4

- S' an Jf1)/71‘) _,,
RE ilea,rrli7 1) eviza71 oincz
/ --c307-‘
-" ' I ,i,t4 OU t P "Atd/6e ace
PCT. 1 g 9n9n

I 1

In McQuiggin VS. Perkins, 133 S. Ct. 1924 (2013), the Supreme Court
held a prisoner filing a first-time (Or anytime because of the measures
described) federal habeas petition could overcome the one-year statute
of limitations in Section 2244(d)(1) upon a showing of "Actual Innocence"
under the standard in Schlup VS. Delo, 513 U.S. 298, 329 (1995). A
habeas petitioner, who seeks to surmount a procedural default through
a showing of "Actual Innocence", must support his allegations with "New
Reliable Evidence" that was not presented at trial and must show that
it was more likely than not that, in light of the new evidence, no jOIror,
acting reasonably, would have voted to find the petitioner guilty beyond
a reasonable doubt. SEE: Schlup, 513 U.S. at 326-27 (1995); SEE: also
House VS. Bell, 547 U.S. 518 (2006) (discussing at length the evidence
presented by the petitioner in support of an actual-innocence exception
to the doctrine of procedural default under Schlup). "Actual Innocence"
in this context refers to factual innocence and not mere legal sufficiency.
Bousely VS. United States
523 U.S. 614, 623-624 (1998).
Factual Innocence in this instant case bears a determinative found
only in defendants Mens Rea/Actus Reus via his Testimony, yet purposefully
evaded, for Model Penal Code, Section 2.02, & must be proven (since Smith
was NEVER at the scene or any scene or even set foot in the place of
business for more than 30 minutes & more than twice in any given one
year period) for Incontrovertible Physical Facts clearly illustrating
absence of Intent, Knowledge of 'facts', to otherwise paint a picture of
Fallacies where Proof of Intent is Non-Existent, thereby producing false
conviction of Non-Existent Offense(s). The cooperative concealment of
the Exculpatory Evidence (Coercion Tape & Exhibit 24) by U.S. Atty's. &
Defense Counsel, combined with an absentee D.M.E. Owner's Intentional
Disallowance to Testify, (Required) produced Erroneous Instruction to the
jury, (Fraud on the Court) so the effect under Model Penal Code, Sect.
2.02 waq 'shot' to prove Smith Knowingly, recklessly, and negligently,
4-raposen
and As requird under 18 U.S.C. Sect. 2, did 'it', whatever 'it' is,
and so withOUT Smith's mental state proven for favor of conviction, Smith
canNOT be held liable of charges of aiding & abetting, Fraud, and the like.
For each material element of the offense, to be culpable, Massive lack
of Intent is Missing, and/or there was NO Jurisdiction in the first place.
(SEE: Motion To Compel Newly Discovered Evidence & Year 2020 Synopsis As
An Addendum, & PART III Writ Of Error & Affidavit Of Error-In-Fact in Docket
le. ovarq. NoWS
Page 3C

An appeal may not be taken to the court of appeals from a final
order in a proceeding under Section 2255 "Unless a circuit justice
or judge issues a certificate of appealability." 28 U.S.C. Section
2253(c)(1)(A). Pursuant to Rule 11 of the Federal Rules Governing
Section 2255 Proceedings, effective December 1, 2009, the district
court must issue or deny a certificate of appealability (COA) when it
enters a final order adverse to the applicant.
A certificate of appealability may issue only if a movant has made
a substantial showing of the denial of a constitutional right. 28 U.S.C.
Section 2253(c)(2). The Supreme Court fully explained the requirement
associated with a "substantial showing of the denial of a constitutional
right" in Slack NS. McDaniel, 529 U.S. 473, 484 (2000). In cases where
a district court rejects a movant's constitutional claims on the merits,
"the petitioner must demonstrate that reasonable jurists would find the
district court's assessment of the constitutional claims debatable or
wrong". Id. "When a district court denies a habeas petition on procedural
grounds without reaching the petitioner's underlying constitutional
claim, a COA should issue when the petitioner shows, at least, that
jurists of reason (Emphasis) would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court
was correct in its procedural ruling". Id.
Every Page within this Brief and subsequent to this page holds serious
meritorious grounds for the lawful ability to Discharge this Debt, or any
Debt, and any Federal Judge knows exactly what I'm talkin' about, and the
Deprivation of My Constitutional Rights are substantiated all the way
through the last page of "Substantiation Page 4, of 3, & 2", so that the
lack pf
ability to Discharge the Debt, Treason to the Constitution exists, and
failure to state a claim Upon which relief may be granted is pervasive,
even more than already is prevalent, and the Motion To Compel Newly Discovered Evidence & Year 2020 Synopsis As An Addendum, AND the Writ, PART
III Of Error And Affidavit Of Error-In-Fact And Affidavit of Regress/
Release/Recoupment hone in on the "substantial showing of the denial of
a constitutional right". Emphasis Added.
I, Daniel Thomason Smith, further aver, that the letter to the Warden
is included not to convey a sense of arrogance, but to state facts warranted
for just cause of a bare minumum of dramatic reduction of sentence by
this court.
Page 3D

Daniel Thomason Smith
Reg.# 29163-380
F.C.C. Beaumont (LOW)
C/0 P.O. Box 26020
Beaumont, Texas 77720
TO: Scott Harris
Michael Duggan
Clerk(s) U.S. Supreme Court

Case No. 20-5635

Enclosed is an obvious petition for the Writ of/for Certiorari,
again, disregarding your template to me, respectfully, because in my
'view', I have already followed the format. Hence, the request for
Rehearing.
NOTE: Your letter (latest) is dated October 31, 2020, and Post-Marked
November 2, 2020. I've received it on November 6, 2020. which means
my U.S. Mail opportunity is November 9, 2020, which turns into the
10th, pursuant to my necessity to make copies... (Lockdown and fight
for copies, etc...)
As precise as your instruction(s) are to me, appreciatively, the
sporadic confusion is prevalent. Thus the request for appointment of
Counsel.
Notwithstanding your statement that this Court makes no provision
for the document that I sent, which you returned to me, the fact of
the matter is the factual basis in law which the document 'holds' is
enormous, so perhaps you mean the structure and/or the procedure is
lacking just those words. An example for the request for the Counsel.
Since you're conversing with someone who is indeed "Actually
Innocent", I will NEVER quit.

Warmest Regards,

Vio
With Sincerety,

Ja2 0

Daniel Thomason Smith

RECEIVED
NOV 2 3 2020

IMAWARAT

CIVIL ACTION
No.
IN THE SUPREME COURT OF THE UNITED STATES
Daniel Thomason Smith Petitioner
VS.
WARDEN F.C.I. BEAUMONT (MEDIUM)
ON PETITION FOR A WRIT OF CERTIORARI TO
FIFTH CIRCUIT UNITED STATES COURT OF APPEALS
PETITION FOR WRIT OF CERTIORARI
Daniel Thomason Smith
Reg. # 29163-380
F.C.I. Beaumont (Medium)
C/O. P.O. Box 26040
Beaumont, Texas 77720

PARTIES
All parties appear in the 'caption' above as Warden is only one.

COVER PAGE

APPENDIX A

QUESTION(S) PRESENTED
Is it appropriate to convict me, Daniel Thomason Smith, when I was
NEVER allowed to testify for what I had knowledge of and/or did not
have knowledge of ??
Since the government has committed the Brady Violation, in Case #
W 16-CR-039, why has the U.S. District Judge, Marcia A. Crone, and U.S.
Magistrate Judge Zack Hawthorn completely ignored my Exculpatory Evidence ??
Is it not MY Right to have the Exculpatory Evidence ORDERED for MY
Right to vindication ??
Since the government has lied about a 'Grand Jury', because there never
was a Grand Jury, then how can the Indictment be 'true'??
Since the original Indictment was signed by U.S. Attorney Robert
Pitman, is it not a conflict of interest that he has 'ruled' on my case
# 6:16CV0280 after he became a U.S. District Judge ??
Is it not true that the case # 6:16CV0280 contains 37 Federal Questions
and Answers that destruct, the U.S. District Court's jurisdiction over Me ??
How can the court convict me withOUT MY demonstration of MY Mens Rea ??
Since it is a strict requirement of the law, to hear MY testimony,
and state of mind/mens rea, how can I be convicted of a crime ??
Since I NEVER INTENDED to commit, or instruct anyone else to commit
any act of fraud, how can I be convicted of any of the charges placed
against me ??
Will the Supreme Court Justice, who is reading this document, ORDER
and take Judicial Cognizance of the TWO CRITICAL Pieces of Evidence
which exonerate Daniel Thomason Smith, which are the government's Exhibit
# 24 AND the 'Coercion Tape' ?? (See Letter entitled Daniel Thomason
Smith's Evidence and Motion To Order Proprietary Exculpatory Evidence).
Is not Justice Warren E. Burger's decision to not withhold Evidence
in President Nixon's case a perfect collaboration for MY right(s) to
Due Process, and thus, compel the Supreme Court Justice to take Judicial
Cognizance of the text of the 'Coercion Tape' and the Exhibit # 24 ??
Since the Savings Clause applies to Actual Innocence, then am I not
convicted of a Non-Existent Offense, because there was NO INTENT to
commit any act of wrong doing, and NO-ONE has ever proven the contrary
to thereby invoke the Savings Clause as 'truly applicable'??
How can I aid and abet when I NEVER even conspired to commit an
initial act of any fraudulent scheme in the first place ??
How can
ETHICAL INQUIRY PAGE 1

APPENDIX A

QUESTION(S) PRESENTED
How can there be any victims of identity theft, fraud, and the like,
when I NEVER even met, saw, or had any knowledge of any of the 'victims',
nor did I ever direct any one else to seek someone's identity to defraud
Medicare/Medicaid ??
How can the U.S. District Judge Alia Moses libel and slander me,
in a Court of Law, in a public record, both written and oral, on February
23, 2017, when she blurted out Two Prejudicial Remarks directed AT ME,
and not be held accountable ??
How can False Witnesses bear False Witness against me without MY
Testimony ??
Is not Circumstantial Evidence, Preponderance of Evidence, He said,
She said, moot withOUT MY demonstration of MY True Mens Rea ??
How can the Assistance of Counsel for Daniel Thomason Smith not
be an Officer of the Court 'first', and moreover, 'a Federal Agent,
posing as an attorney for Daniel Thomason Smith ??
How can the Assistance of Counsel for Daniel Thomason Smith be totally
ignorant and oblivious of my imperative necessity to testify for
demonstration of my True Mens Rea ???
Is it not true that, AND, according to Black's Law Dictionary, 10th
Edition, that U.S. District Judge Alia Moses, not only slandered AND
libeled me 'by and through' public hatred and blasphemous REMARKS
DIRECTED AT ME, WHICH WERE PREJUDICIAL, EMPHASIS ADDED, on February 23,
2017, RIGHT SMACK INTO THE RECORD, when she said, " You have bought
your way out of everything, always, and you!re not buying your way
out of this one", and she then said, "Oh, YOU and you're sovereignty",
and she seriously VIOLATED MY RIGHT(S) FOR MY ALLOCUTION, BECAUS4
This address is rectOred under Fed. R. Crim. P. 32(c)(3)(C) 992 "
Why are MY documents hidden, or trashed because they are not
found the docket sheet regarding MY Allocution because when Alia
blasted My Allocution on February 23, 2017, she said I could leave
My Allocution for entrance into the record, and so where are those
documents ??
Is it not true that Alia Moses is indeed held liable for slander
and libel to/against me so that my Law Suit bearing the case # 1:18CV-635 is sustainable and 'holds' merit, because NO ONE can state
blasphemous remarks to me, in a Public Courtroom, in Oral AND
Written Record(s), regarding my heritage, and generating HARM and
ETHICAL INQUIRY PAGE 2
APPENDIX A

QUESTION(S) PRESENTED
Post Traumatic Stress Disorder(s), and Mental Anguish through Nightmares
by and through slanderous remarks that are hurtful and hateful, just
because I grew up around the law and know MY Right(s) 999"
23. Should Alia Moses be Impeached and Removed from the bench, whereever she has 'shifted' to, to include, but not limited to, The Texas
Supreme Court Justice, and/or other U.S. District Judgeship(s), etc.???
Why have U.S. Magistrate Judge Zack Hawthorn & then U.S. District Judge
Marcia A. Crone in the Eastern Dist. Texas, Beaumont Div., having juris.
(where.my flesh-and-blood body is Warehoused for Commercial Fraud by the
govt.) for the Title 28 U.S.C. Sect. 2241 properly submitted, completely
ignored, evaded, and disregarded in my Sect. 2241, the fact that Newly
Discovered Evidence is and will always be Available for presentation in
infinite subsequent Sect. 2241's, or the like, for the simple, obvious
basic Right(s) for 'Due Process' and conceivable Exculpation of the
Undersigned, and ignoring my Invocation of the Incontrovertible Physical
Facts Doctrine (Hotel Manifests, Airline Manifests, Country Club Receipts,
and Two friends who were expecting to Testify that I, Smith was NEVER at
the business for which I owned) because MY Exculpatory Evidence, being
the govt's Exhibit #24 & The 'Coercion Tape', and the fact that Excul
patory Evidence and Testimony (Testimony is actually also Exculpatory,
MY Testimony, which is a strict requirement of the Law) are Newly Discovered
Evidence because they have NEVER even been presented in the first place,
and the Incontrovertible Physical Facts Doctrine by its Exclusion and
Pre-meditatedly, with Intentionality Precluding such vindicating Evidence
because they are allergic to the truth, because Exoneration of Smith
cuts into their paychecks, because I, Smith NEVER committed actions of
ridiculous Fraud and Identity Theft, and NO ONE can or has or ever will
prove the contrary, and so can we say The Brady Violation, which is also
Fraud on the Court???????????
25. Did U.S.D.C. Beaumont not Err because The Savings Clause in Sect.
2255, and my usage of 28 U.S.C. Sect. 2241 is proper, despite The Hon.
Marcia Crone's denial, because of my actual innocence of violation of
Fraud and Identity Theft, generating the illegal Sentence & Incarceration?
See: Reyes-Requena VS. United States, 243 F. 3d 893, 904-06 (5th Cir.
2001); In Re. Jones, 226 F. 3d 328, 333-34 (4th Cir. 2000); Triestman
VS. United States, 124 F. 3d 361 (2nd Cir. 1997). and because:
On May 28, 2013, the Supreme Court decided, McQuiggins VS. Perkins,
ETHICAL INQUIRY PAGE 3
APPENDIX A

QUESTION(S) PRESENTED
506 U.S.
2013, In1Light - of McQuiggins, Smith's actual innocence of
violating 18 U.S.C. Sect. 1347, 1028, and 1035 has been properly raised
in the instant motion pursuant to Sect. 2241 and 2255(e) motion, and
there is no time barr, because this case falls under the "Fundamental
Miscarriage of Justice Exception" (just like Newly Discoverd Evidence)
reaffirmed by the Supreme Court in McQuiggins. This course of action for
Actual Innocence is the Savings Clause under Sect. 2255(e), due to Sect.
2255 or Sect. 2255(h) being Inadequate or Ineffective.???
Do you see the identical similarity between Brett Kavanaugh having
some loony tune lady from San Fran., inter alia, splash a bunch of non
sensical slanderous, defamatory, libel(ing), blasphemous junk about you
like when the Indictment about me says that I told one of my employees
that "the Feds. can come after me and pin my aus to the wall", and that
they told me "we had to stop 'doing' fraudulent claims". What the heck
are these people talkin' about????
Will you see how the Asst. U.S. Attorneys are excellent at playing
on the Emotions of the jury, because even the trial and sentencing judge'
Alia Moses is an Emotionally submissive individual??
Is it possible that F.B.I. agent Lee McLoy (See Procedural History,
Appendix F, and Substantiation Pages 19-21, Appendix B; Heed the Sociopathic behavior and traits of the F.B.I. Agents) surreptitiously violated
the prohibition of electronic communications wiretapping laws when he
coerced My Office Manager to call me & he recorded the call, (Hence:
"The Coercion Tape") in March of 2012, by NOT yet having proper authority
to pull such a stunt, and that's why the gov't. AND my attorney refused
to even fathom playing MY EXCULPATORY EVIDENCE, (BRADY!) and with, of
course, the fact that it was Exonerating, combined with MY evaded,
required by law, Testimony, producing Pre-Meditated with Intentionality
pure FRAUD on the Court??? See: Behavior of Lee McLoy's Boss(es) Jim
Comey & Andrew McCabe, and counterparts, Peter Strzok & Lisa Page, AND
ALL of the Double Standards.... Despicable Disparity. Emphasis Added.

ETHICAL INQUIRY PAGE 4

APPENDILLA

SUBSTANTIATION OF PETITION FOR. CERTIORARI
When Daniel Smith's Procedural History is read from the original
Title 28 U.S.C. 2241, filed in the Eastern. District of Texas, Beaumont
Division on November .8, 2018, and the government's Exhibit # 24, AND
the 'Coercion Tape' is/are revealed, (provided preservation of the
tape has prevailed and it has been safe, NOT tampered with, altered,
edited, filtered, modified, etc..) any reasonable Judge will clearly
see that Daniel Smith was not only NEVER at the business, but Daniel
Smith was also completely unaware of operations and intentions of an
employee's efforts to proddce fraudulent claims billed to Medicare and
or Medicaid.
It is IMPOSSIBLE to convict me withOUT MY Testimony, which is a
strict requirement of the law and entrance of MY Mens Rea into the
record. See: Title 18 U.S.C. Section 2, and its substantive definition
of what constitutes an INTENT. Emphasis Added.
You or I canNOT (lawfully) be convicted of a crime which we did
NOT KNOWINGLY commit. Period. Anything to the contrary is a FRAUD, in
and of itself.
The simple similarity here is, you were the owner of the Mall,
a young lady in the perfume department at Nordstroms was conducting
a 3 ring circus of a drug ring, buying, selling, the whole enchilada,
and boom, you get Indicted for a Drug Conspiracy, and all the while,
you have no idea what that gal is doing.
Similarly, Brett Kavanaugh NEVER even associated with the gal
that flew from San Fran. to come testify AGAINST Brett, and we all
remember how she couldn't even look out of her glasses and that hideous
hair!! Oh come on, you think she flew all over and to Honolulu, etc..
looking like that?? Point being, she was coached to play the part of
an overwhelmed battered lady recalling some horrific act(s) by Brett.
What a joke!! Right?? So, as you read this 90 page 'report', PLEASE
place all bias aside, as U.S. Dist. Judge Alia Moses never did.
(Brett, I prayed for you and your precious wife and girls daily.)
To the Hon. Justice(es), imagine being taken from your beautiful
wife and children and home...
I entrust that you all will order the original 30 page Title 28
U.S.C. Sect. 2241 from East Dist. Texas, Beaumont Division, and 'live'
SUBSTANTIATION PAGE 1
APPENDIX B

within my 11 page Procedural History, realizing the Indictment is/was
an incredible concoction of theoretical presumptions, designed to point
culpability upon my name, such as about 8 emails that I sent out to an
employee ONE time when I was going on a trip, and the idea was to
emphasize certain methodical tasks that needed attention, and the bank
accounts that, Yeah, I told employees to set up at my bank so that I
could transfer funds to their accounts easily. Wow. what a crime!! The
Asst. U.S. Attorneys had to inflame an otherwise normal set of
circumstances into a, "Oh, he's a bad boy." Oh Come On! And what's
this 97 Percent conviction rate?? Oh, now I see. Let's create a pack
of lies about you and go get a conviction. Quite simple, Apparently.
The Infinite Budgets of the governmental actors/agents are an
incredulous sorrowful reason for this debacle, travesty, and UNnecessary
conviction, and incarceration, which has caused Law Suits, stemming
from everything like Physical Assault(s), Sexual Assault(s), severe
Health Issues evaded, exposure to vast amounts of Black Mold, causing'
additional Health Issues, still evaded, U.S. Mail Fraud, to name a few.
EFFICACY FOR PLAUSIBLE CERTIORARI BY THE SUPREME COURT
Procedurally, and In Witness Whereof: because this entire 'report'
is My Affidavit, and you will see all numerous Affidavit(s), and
are/were to establish the veracity for those who may not be allergic
to the truth, (To date, No One has decided to step up for what is 'right'
and so Daniel Thomason Smith of/for DANIEL THOMASON SMITH(C) TRUST
Ens Legis, and in Case # 6:16CR039 (And now, Case # 1:18CV581, which
U.S. Dist. Judge Marcia A. Crone has failed to admit) AND in Indictment
that is a Negotiable True Bill, SA13CR09780G, there was NEVER ANY
UNDERSTANDING (See: Appendix I and Specifically PROOF OF CLAIM es
12, 14, 20, & 21) that I was or am responsible for the Bonds, and
there is NOTHING in the record to prove such cause of/for further
action beyond the date of December 4, 2013. That right there NULLIFIED
Jurisdiction, OR The Officers of the United States are to be charged
and convicted with treason, IF they had not provided a REMEDY, which
they did, attributed to, Mandell House, a close confidant to the
President,(See: House Joint Resolution 192 recorded in the Congressional
Record in May 23, June 3, June 10 of 1933.) and claiming MY Right(s)
on/from MY Birth Certificate ("A very valuable instrument") and HJR
SUBSTANTIATION PAGE 2

APPENDIX B

192 on June 5, 1933, addressed and approved by the Supreme Court in
1939, now identified in Public Law 73-10, and we all know what U.S.
Rep. Louis T. McFadden said when he brought formal charges May 23,
1933 on the floor of the House against the Board of Governors of the
Federal Reserve Bank System, The Comptroller of the Currency, and the
Secretary of the United States Treasury (Congressional Record May 23,
1933: "Mr. Chairman, we have in this country one of the most CORRUPT
Institutions the world has ever known, I refer to the Federal Reserve
Board and the Federal Reserve Banks..."
The U.S. Supreme Court decisions in Guaranty Trust Co. of New
York VS. Henwood Et.Al. with Chemical Bank & Trust Co. VS. Same, Nos.
384, 485 [307 U.S. 251] quotes HJR 192 word for word, "Analysis of
the terms of the Resolution (FN3) discloses first, the Congress declared
certain types of contractual provisions against public policy in terms
so broad as to include then existing contracts, as well as those hereafter to be made [307 U.S. 252]. In addition, future use of such proscribed provisions was expressly prohibited, whether actually contained
in an obligation payable in money of the United States or separately
'made with respect thereto'. This proscription embraced 'every
provision' purporting to give an obligee a right to require payment
in (1) gold, (2) a particular kind of coin or currency of the United
States money measured by gold or a particular kind of United States
coin or currency." "Having thus unmistakably stamped illegality upon
both outstanding and future contractual provisions designed to require
payment by debtors in a frozen money value rather than in a dollar of
legal tender current at date of payment, Congress--apparently to
obviate any possible misunderstanding as to the breadth of its objective
--added, with studied precision, a chatchall second sentence sweeping
'
every obligation', existing or future, payable in money of the United
States, irrespective [307 U.S. 253] of 'whether or not such provision
is contained". "Every obligation, heretofore or hereafter incurred,
whether or not any such provision is contained in or made with respect
thereto, shall be discharged upon payment... in any coin or currency
which at the time of payment is legal tender for public and private
debts." (HJR 192) (SEE: Appendix I , as thatkEntire Motion 'covers'
in succinct detail THE Inside AND Outside the U.S.D.C's. Jurisdiction.
Entitled: MOTION TO COMPEL NEWLY DISCOVERED EVIDENCE AND YEAR 2020...)
SUBSTANTIATION PAGE 3
APPENDIX B

Therefore, this critical 'report' which is indeed meritorious
for Certiorari because Motion to Amend or Alter Judgment Rule 59(e)
allows for correction of law or fact or to produce newly discovered
evidence. Waltman VS. International Paper Co. 875 F. 2d. 468, 473
(5th Cir. 1989)
In Texas, recognition of Incarceration 'of' my Actual Innocence
violates my Due Process Clause of the Fourteenth Amendment. Elizondo
947 S.W. 2d. at 205; Thus, serves as freestanding, substantive basis
for habeas relief. (See: Previous clear explanation(s) of my Ineffective
and Inadequate 'abilities' by and through literal hidden and/or trashed
Title 28 U.S.C. Sect. 2255's. Emphasis Added.
See: Plausible Inclusion.of Appendix H , and the obvious Violation(s)
of my- Sixth and Fourteenth Amendment(s) for counsel and the very
problematic Right, or the lack thereof, to Defense, NOT just this
MiscoRtrued Representation, and notice how the lawyer is caught redhanded lying, (Pages 8-11) (1) See from the .confirmation and my family
that there was NEVER any appeal to New Orleans AND "That assertion is
untrue" (Page 10).. If it were untrue, then why did he not play my (2)
Exculpatory Evidence (The Coercion Tape) and hit the ball outta tha
park & The Exhibit #24??!? I swear, 'they've tampered, edited, erased,
modified, and the like MY Exculpation Product(s), and this is all
Pre-Meditated with INTENTIONALITY FRAUD VIOLATION BRADY VS. MARYLAND.
(See: Sidney Powell- 'Defense' for Michael Flynn)
PRESUMPTION OF SMITH'S PROCEDURAL DEFICIENCY VS. THE CONSTITUTION
Let's assume that I, Smith still don't have the correct procedural
'stuff' quite in line for all of this "Smith doesn't meet the criteria
for the Savings Clause". Ah Bull, because The Constitution TRUMPS ALL
Statutes, Oh Yes It Does. Watch this, to wit:
Actual Innocence Id., 404, 113 S. Ct 853 122 L. Ed. 2d. 203 (citing
Sawyer VS. Whitley, 505 U.S. 333, 112 S. Ct. 2514, 120 L. Ed. 2d. 269
(1992)) Murray VS. Carrier, 477 U.S. 478, 496, 106 S. Ct. 2639, 91 L.
Ed. 2d 397 (1986) "Without showing cause for procedural default" &
Pursue his Constitutional Claims, like Ineffective Assistance of Counsel,
& Stop Incarcerating Innocent People." Herrera, 506 U.S. at 404, 113
S. Ct. 853, 122 L. Ed. 2d 203.
SUBSTANTIATION PAGE 4

APPENDIX B

United States VS. Ekanem, 555 F. 3d. 172 (5th Cir. 2009) See his charge
Of 18 U.S.C. Sect. 1347 (Medicare Fraud) and it's always about knowingly.
Every one I read, is all about what he or she knew. Where's. My Knowledge
that has NEVER been sought?? That's because they are scared and 'know'
(Ha!) that I NEVER KNOWINGLY committed an act that they claim I did,
so since they can't 'tap' My Dignity, they have hidden from the truth.
All of this reliance upon Preponderance of Evidence, Circumstantial
Evidence, He Said, She Said, They Said, We Said, and even I Said, is
a flat out joke. I can say that you said.... Absolutely makes NO sense,
does it?????
I know My Right(s), and I, nor you can (Lawfully) be convicted of
an act which I, or you did NOT KNOWINGLY commit. Period. Period.
Finally, what began with a person in Boston, and another in
New York, who are and have been dying to post The Article, which is
Appendix L , because they wrote to me with empathy for just cause,
and that (The Article) is what the one in N.Y. wrote. So, my point is,
after all of the Sexual & Physical Assaults & Severely Busted Wrist
and Mental Anguish and Life Long Severe Post Traumatic Stress Disorder,
and Health Issues Unattended to, and my elder status (59), and NO
Violence, and NO Criminal History, (And Lord only knows where someone
claims I have a Crim. Hist. of '2', when I can't even-spell traffic
citation) that this utterly ridiculous 'sentence' pronounce upon my
name should be DRAMATICALLY REDUCED, AT.A BARE MINIMUM, or of course,
what I have propounded to this Court, respectfully, and No One can
prove the contrary. See: Appendix L .
NOTE: Pages 6 through 16 of this section entitled SUBSTANTIATION,
which is Appendix B is indeed submitted as of

("atm aa,,apao

E.Y.I.

NOTE: Pages 17 through 24 of this section entitled SUBSTANTIATION,
which is Appendix B is included to proceed 'with an abundance of
caution' so as to rely on your receipt of these first 7 Pages of the
original 2241, and enclosed Appendix F, the 'real' Procedural History
for any sort of SURREBUTTAL TESTIMONY since even Eastern Dist. Tx.,
Beaumont, to date, has refused and evaded such cause, looking solely
for procedural deficiencies. Hence; The reason for Pages 6 through 16.
SUBSTANTIATION PAGE 5
APPENDIX B

JURISDICTION
The date on which the United States Court of Appeals decided my case
was

0-arle_ii1 a0a0

No petition for rehearing was timely filed in my case.
The jurisdiction of this Court is invoked under Title 28 U.S.C.,
Section 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
5th Amendment of the Constitution for Entitlement to Proper Representation
and Due Process 'Right(s)', and Witnesses.
6th Amendment
14th Amendment
Universal Declaration of Human Rights
Article 8, 5, 3, 11. 12.
STATEMENT OF THE CASE
INTRODUCTION
BASIC FACTS
1-ow Daniel Thomason Smith is confined to F.C.I. Beaumont (14e4i-trfir) at
P.O. Box 26.040 Beaumont, Texas 77720. Fed. I.D. # 29163-380. The sentencing
occurred in San Antonio Division under Case # W 16-CR-039 on the 23rd
day of February, 2017, with finality on March 23, 2017.
A trial occurred from June 20, 2016 through June 27, 2016. On June 27,
2016, a jury 'found' guilt of all counts 1 through 21 for Conspiracy to
Commit Health Care Fraud, Count One. 18 U.S.C. Section 1347 Aiding &
Abetting Health Care Fraud, Count Two, 18 U.S.C. Section 1028 C Aiding
& Abetting Aggravated Identify Theft, Counts 3-13. 18 U.S.C. Section 1035
Aiding & Abetting False Statements Relating to a Health Care Matter,
Counts 14-21.
SPECIFIC CASE(S) FOR SUBJECT MATTER
W 16-CR-039
6 16-CR-039
Title 28 USC SECT. 2241 1:18CV581 Eastern Dist. Tex. Beaumont
19-40558 Fifth Circuit New Orleans
Which led to the Appeal
PAGE 2

Rexturtan—stmck

. Ei C71 14
TABLE OF CONTENTS

Appendix A: QUESTIONS PRESENTED 27 TOTAL 4 Pages
Appendix B: SUBSTANTIATION OF PETITION FOR CERTIORARI BY THE SUPREME COURT
Appendix C. OPINIONS OF U.S.D.C. & FIFTH CIRCUIT
Appendix D. MOTION FOR OBJECTIONS/RESPONSE TO APPELLEE BRIEF
Appendix E. APPELLANT BRIEF TO FIFTH CIRCUIT COURT OF APPEALS
Appendix F. PROCEDURAL HISTORY which Dismantles Indictment & gives
Correct Facts ( NOT INFERENCES ) & Events & Sequence(s)
of Events to the matter of an otherwise contorted Fallacy.
Appendix G. RESPONSE & OBJECTIONS TO REPORT & RECOMMENDATIONS OF
U.S. MAGISTRATE JUDGE Note: Critical for Review which
were filed in this 'Motion' and Reviewable in Appendix H I
are My Affidavit of Sequestered Proprietary Evidence.
Daniel Smith's Evidence & Preservation Letter Of My
Exculpatory Evidence & The Attorney's Response to me
Lying by Evading My Exculpatory Evidence. Emphasis Added.
Appendix H. LEGAL MALPRACTICE SUIT & The Correlation to Violation
& Deprivation of My SIXTH & FOURTEENTH AMENDMENT RIGHT(S).
Appendix I. LEGAL EFFICACY FOR PLAUSIBLE CERTIORARI BY THE SUPREME
COURT which is the MOTION TO COMPEL NEWLY DISCOVERED
EVIDENCE & YEAR 2020 SYNOPSIS...
Appendix J. LETTER TO WILLIAM BARR
Appendix K. LETTER TO CRIMINAL INVESTIGATIONS DIVISION (C.I.D.) OF
THE INTERNAL REVENUE SERVICE (I.R.S.) AND TO THE
SECURITIES EXCHANGE COMMISSION (S.E.C.) CRIMINAL INVESTIGATION
Appendix L. ARTICLE TO BE PUBLISHED (BEGAN IN THE NORTHEAST)
ESPECIALLY IF ANYTHING "HAPPENS" TO ME, RETALIATORY
OR OTHERWISE BY THE D.O.J. AND/OR B 0

P

Appendix M. CONCLUSION HEED THE TRUE STORY INCLUDED (BACKWARDS
JUSTIFICATION)
NOTE: My MOTION TO ORDER PROPRIETARY EXCULPATORY EVIDENCE (REVIEWABLE
IN APPENDIX H) FILED WITH DOC'S IN APPENDIX G WAS SIMPLY IGNORED.
CONTRADICTS IMPERATIVE APPLICATION AND AUTHORITY TO PREVENT
FRAUD, BRADY VIOLATION, DEPRIVATION OF DUE PROCESS, PURSUIT OF
CONSTITUTIONAL CLAIMS/RIGHTS. SEE: PAGE 4 of Appendix B.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS AFTER CONCLUSION
PAGE 3 SMITH REMEDIAL ACTION

IN THE UNITED STATES DISTRICT COURT
OF THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
Daniel Thomason Smith
VS.
UNITED STATES OF AMERICA Et. Al.
Respondent(s)

CIVIL ACTION NO.

PLAUSIBLE FOR SECT. 2241
MOTION FOR RELIEF PURSUANT TO
TITLE 28 U.S.C. SECTION 2255
COMES NOW: Daniel Thomason Smith, pro se, Plaintiff, Petitioner,
for request for entrance into this Honorable Court, respectfully, in
above styled cause to 'possibly' receive clarification for procedural
defect(s)/deficiency wherein Constitutional provision(s) underline
an otherwise simple conclusion to Responsibility under Law.
The Constitution trumps all statute(s).
In recent 'litigation', there are some conflicting decisions
,that lend a serious contradiction to the above statement. Therefore,
I, Daniel Thomason Smith, Affiant, as I request that this document
be construed as an Affidavit, for the veracity is of, to my knowledge,
understanding, sworn on my Unlimited Commercial Liability, true,
complete, and correct, so help Me, God, and under penalty of perjury,
pose enclosed Motion(s) pursuant to the Case #,, 6:16CR039, ultimately
adjudicated to pronounce culpability upon my name.
I sent 3 (Three) Sect. 2255's to collaterally attack the
conviction and sentence against me, and one was denied by Judge Alia
Moses on or about July 8, 2016; the 2nd one was sent in October of
2016, and 'ruled' by Robert Pitman, who obviously became a U.S. Dist.
Judge AFTER placing his signature on the original Negotiable True
Bill against me, which was a conflict of interest, in of itself.
A.K.A., a violation. The 3rd 2255 was sent in January of 2018 via:
U.S. Certified Mail, which was 'TRASHED' by the prison, since it was
never even recorded in the U.S.P.S. System, AND the prison staff
trashed my folder containing 'that' copy of said Motion and U.S. Mail
Receipt when the prison staff 'shook down' my unit.
While I know a time constraint looms large for detrimental effect
in my behalf, I nonetheless present the stark differences of Motion(s).
SUBSTANTIATION PAGE 6 S. CT.

Page 1

When raising an invocation of/for the savings clause, (28 U.S.C. Sect.
2255(e), serious contentions were brought forth to wit:
It is IMPOSSIBLE TO convict me (Lawfully) withOUT MY Testimony,
which is a strict requirement of the law and entrance of MY Mens Rea
into the record. See: Title 18 U.S.C. Section 2, and its substantive
definition of what constitutes an INTENT. Emphasis Added.
You or I canNOT (Lawfully) be convicted of a crime which we did
NOT KNOWINGLY commit. Period. Anything to the contrary is a FRAUD, in
and of itself.
The simple similarity here is, you were the owner of the Mall,
a young lady in the perfume department at Nordstroms was conducting
a 3 ring circus of - a drug ring, buying, selling, the whole enchilada,
and boom, you get Indicted for a Drug Conspiracy, and all the while,
you have no Idea what that gal is doing.
So, as you read the enclosed Sect. 2241, designed obviously in
this instance, to 'read' in same for construal as the 2255 for the
Jurisdiction of this Honorable Court, respectively, see where proper
vehicular application fits for inadequacy or ineffectiveness to test
the legality of my detention, under Sect. 2241; McGhee VS. Hanberry,
604 F. 2d 9, 10 (5th Cir. 1979) (citation omitted). As in this Court,
the primary means for collateral attack on a federal sentence, for
error at trial, and or prior to sentencing and or at sentencing...
Cox VS. Warden, Fed Det. Center, 911 F. 2d 1111 (CA 5 1990); United
States. Flores, 616 F. 2d 840, 842 (5th Cir. 1980) (omitted).
Daniel Thomason Smith has had trashed 2255's to San Antonio and
my usage of The Savings Clause in Sect. 2255, via proper usage of
2241, despite the Hon. Marcia Crone's denial, because of my actual
innocence of violations of Fraud and Identity Theft, generating the
Illegal Sentence & Incarceration. See: Reyes-Requena VS. United States,
243 F. 3d 893, 904-06 (5th Cir. 2001); In Re. Jones, 226 F. 3d 328,
333-34 (4th Cir. 2000); Triestman VS. United States, 124 F. 3d 361
(2nd Cir. 1997),
On May 28, 2013, the Supreme Court decided, McQuiggins VS Perkins,
506 U.S.
2013). In light of McQuiggins, Smith's actual innocence
of violating 18 U.S.C. Sect. 1347, 1028, and 1035 (which has NEVER
been proven and it canNOT be) has been properly raised in the instant
motion pursuant
Page 2
SUBSTANTIATION PAGE 7 S. CT.

motion pursuant to Sect. 2241 and 2255(e) motion, and there is no
time barr, because this case falls under the "Fundamental Miscarriage
of Justice Exception" reaffirmed by the Supreme Court in McQuiggins.
This course of action for Actual Innocence is the Savings Clause under
Sect. 2255(e), due to Sect. 2255 or Sect. 2255(h) being Inadequate or
Ineffective.
There always has to be a Remedy. Cox VS. Warden, Fed Det. Center,
McGhee VS. Hanberry
When I raise Supreme Court decision in Rosemond VS. United States,
572 U.S. 65 (2014), the simple correlation to collaterally attack the
legality of conviction and/or sentence is Rosemond did not have
"ADVANCED KNOWLEDGE" OF THE FIREARM; In the Daniel Thomason Smith's
case, NO ONE has ever proven that I had ADVANCED KNOWLEDGE OR ANY
KNOWLEDGE OF PRODUCTION OF FRAUDULENT CLAIMS TO MEDICARE AND/OR
AIDING AND ABETTING AND GIVING DIRECTIVES TO RUN AROUND AND STEAL
PEOPLE'S IDENTITY TO BILL MEDICARE!.!
RETROACTIVELY OR NOT, THE PRECEDENT WAS SET THAT ESTABLISHES
MY ACTUAL INNOCENCE OF ABOVE PARAGRAPH BECAUSE THE DECISION DECRIMINALIZED THE CONDUCT FOR WHICH I WAS CONVICTED AND I could NOT raise
issues stated at the trial and even the sentencing hearing because
Alia Moses would NOT allow me to Allocute, which is a violation of
Fed. R. Crim. P. 32(c)(3)(C), which is also Pre-Meditated FRAUD on
the Court.
Keep in mind, I already told you the previous 2255's have been
removed from the Docket Sheet, and the 3rd one was destroyed AND
MY copies by the prison staff in January of 2018, AND even MY U.S.
Mail Certified Registration Receipts. Emphasis Added.
FACTUAL BASIS FOR ISSUES RAISED
In my case, MY Mens Rea is missing, to illustrate My state of
mind (INTENT) (See: Any definition of INTENT) and the DISallowance
To Testify is a violation in and of itself, because the Title 18
U.S.C. Section 2, substantively defines what constitutes a violation
of INTENT, and quite frankly the definition of such, accordingly,
and MY lack of Testimony (which a strict requirement of the law)
was to erroneously WITH INTENTIONALITY, DEFRAUD THE COURT BY
instructing the jury to claim that "KNEW" my intent, and MY TESTIMONY
which i
Page 3
SUBSTANTATION PAGE 8 S. CT.

which is a STRICT REQUIREMENT OF THE LAW, so withOUT it, I have been
convicted of a NON-Existent Offense(s), thereby generating ACTUAL
INNOCENCE to be pervasive.
The Pre-Meditated FRAUD on the Court exists AND also for EVADING
MY TWO CRITICAL PIECES of EXCULPATORY EVIDENCE, WHICH WERE THE
EXHIBIT # 24 & the 'Coercion Tape', generating the BRADY VIOLATION.
The Assistant U.S. Atty's would NOT play the tape NOR would the socalled Fraudulent Attorney for my representation, NOT my defense,
because they knew it was vindicating and the Exhibit #24, which was
the 'whole story: was also what the attorney could have taken and
chopped like hamburger meat, which I invoke the INCONTROVERTIBLE
PHYSICAL FACTS DOCTRINE, and those TWO pieces of MY EXCULPATORY
EVIDENCE, which demonstrate that I was NEVER at the business for
which I owned, and did NOT even have a key to the front door, but
that I did NOT even know how to turn on the computer!!
CRITICAL NOTE: The 'Coercion Tape' may have been tampered with,
altered, modified, filtered, edited, and the like since neither my
atty., nor the 'gov't.' would play it, and the last time I heard it
and the only time I heard it was the ORIGINAL Attorney's office, who
bailed out in late 2015 due to a medical mishap, and it's Exonerating,
or, it was.
NEWLY DISCOVERED EVIDENCE
Jeannette J. Clack has my 'Discharge' of the Debt, which is all
that this is, before my complete exhaustion of my private administrative
remedy process, before my Tort Claim and subsequent Law Suit for
all of the FRAUD against me, and now I bring forth an 'updated' version
in the attached Motion to accompany this Brief of Introduction and
Title 28 U.S.C. Section 2255. The reason for the vast difference(s)
is simple: 1. To 'reason' with the Interior of the Jurisdiction of
the Court in case 6:16CR039, for 'knowledge' that you canNOT (Lawfully)
convict me (OR YOU) of something that I (OR YOU) did NOT KNOWINGLY do,
but now to also explain the Exterior of Jurisdiction, where I was
FRAUDULENTLY LED ASTRAY FOR THE COMMERCIAL FRAUDULENT BENEFIT OF ALL
INVOLVED. See: MOTION TO COMPEL NEWLY DISCOVERED EVIDENCE enclosed.
(2). I am NOT responsible for the Bonds (Liens against me), and NO
ONE ever explained to me that was a 'set up' of such to create a Debt.
SUBSTANTIATION PAGE 9 S. CT. Page 4

I, Daniel Thomason Smith will show the Judgment is VOID from
its inception in said Motion.
Judgment rendered without Jurisdiction, and/or therefore not
authorized by law, and/or there has been such a denial or infringement
of my constitutional right(s) as to render the judgment vulnerable.
28 U.S.C. Section 2255. Jeffers VS. Chandler, 253 F. 3d 827, 830
(5th Cir. 2000); Tolliver VS. Dobre, 211 F.. 3d 876; 877 (5th Cir. 2000)
per curiam))
IF I operate within the jurisdiction. of 'that' Court of Case
for subject matter at hand, I have clearly explained My Constitutional
Right(s) violated in the trial court, AND for Sect. 2255, applicable
right here in this enclosed Sect. 2241, construed as 2255 applicability,
or for the Judgment rendered for enclosed Motion to wit:
2241 "Savings Clause" of Sect. 2255 provides my limited exception
for Sect. 2241. See: Pack VS. Yusuff, 218 F. 3d. 448, 452 (5th Cir.
2000)
Inadequate or Ineffective under Sect. 2255, retroactively
applicable Supreme Court decision establishing actual innocence
because the decision decriminalized the conduct for which I was
convicted and would have been foreclosed by existing circuit precedent
had I raised it at trial, direct appeal, or original 2255.
Reyes-Requena VS. United States, 243 F. 3d 893, 904 (5th Cir. 2001)
Remember, I could NOT raise issues in trial for stated reasons
AND subsequent relief became obsolete, so reviewability is invoked
for meritorious grounds as Motion to Amend or Alter Judgment Rule
59(e) allows for correction of law or fact or to produce newly
discovered evidence. Waltman VS. International Paper Co. 875 F. 2d.
468, 473 (5th Cir. 1989).
In Texas, recognition of Incarceration 'of' my Actual Innocence
violates my Due Process Clause of the Fourteenth Amendment. Elizondo
947 S.W. 2d. at 205; Thus, serves as freestanding, substantive basis
for habeas relief.
I will show the Attorney lying_ to me in enclosed Exhibit Appx. H.
because as you will clearly see from the confirmation from the Clerk
in New Orleans, that was NO case number and NO Appeal AND "That
assertion is UNtrue", where he would NOT play MY 'Coercion Tape',
(Exculpatory Evidence) and NEITHER would the Gov't. (BRADY VIOLATION)
SUBSTANTIATION PAGE 10 S. CT.

Page 5

If it were UNtrue ("That assertion") then why did he NOT play MY
Exculpating Evidence and hit the ball outta tha park??? & The Exhibit
# 24 should, and could have been hammered home!! The tape has been
hidden, tampered with, altered, filtered, modified, edited.
Actual Innocence Id., 404, 113 S. Ct. 853 122 L. Ed. 2d. 203
(citing Sawyer VS. Whitley, 505 U.S. 333, 112 S. Ct. 2514, 120 L. Ed.
2d. 269 (1992)) Murray VS. Carrier, 477 U.S. 478, 496, 106 S.'Ct.
2639, 91 L. Ed. 2d 397 (1986) "Without showing cause for procedural
default" & Pursue his Constitutional Claims, like Ineffective Assistance of Counsel, & Stop Incarcerating Innocent People." Herrera,
506 U.S. at 404, 113 S. Ct. 853, 122 L. Ed. 2d 203.
PRESUMPTION VS. INTERPRETATION VS. REALITY
Presumption(s) equals Theory(ies), albeit, circumstantial, and
Preponderance, and all of these thrown in he said, she said, we said,
they said, in the case of Smith, was/were/are designed to offer a
and/or an idea of the person(s) making such ludicrous statements about
me to generate pure falsehoods, but to 'rely' on less time of an
incapacitation known as sentencing to incarceration of some other
co-defendant, whereby prosecutors wrapped me into an act of conspiring
to cooperate or giving directives to commit Fraud. Gimme a break. Jeez.
Hence, the correlation for Advanced Knowledge in Rosemond VS. United
States 572 U.S. 65 (2014). The trial court severely erred, precluding
My Constitutional Right(s), 5th, 6th, 8th, 14th Amendments, to Testify
and there is NO evidence in any record, Emphasis Added, to prove that
I had any KNOWLEDGE of contorted Theoretical Presumptions in a bold
Fraudulent Indictment.(See: Appendix F & H). In addition to the Brady
Violation, clearly with Intentionality, The Asst. U. S. Attorneys set
up a deal to bear False Witness(es) about/ against me, to slander &
libel me, withOUT MY Testimony (Pre-Meditated With Intentionality Fraud
on the Court, like, for example, putting a lady on the stand in the
trial to literally state, as a Notary, that signatures were mine, which
were NOT, and. I told the Asst. Atty. to the Attorney sitting next to
me that those are not my signatures, he told me to be quiet, and they
would handle it, so at recess, I told the atty., and he said he would
"handle it", and he, of course, did NOTHING.
Interpretation equals OPINION(s). How can you ever fathom an
SUBSTANTIATION PAGE 11 S. CT.

Page 6

opinion or an interpretation about something or someone withOUT that
person's KNOWLEDGE OF/FOR his INTENT receiving proper demonstration??
Emphasis Added. See: Title 18 U.S.C. Section 2, for God's sake.
Reality: See: Every word on Every page within this 'Teport' for
overwhelming cause to GRANT said-petition.
As raised in 'discarded' Motion Sect. 2255 in January of 2018,
Excessive Sanction and for Judicial Cognizance for the "Manner in
which this sentence pronounced upon my name is being executed", the
sentence is being executed in a profane, unreasonable, unnecessary
way so as to violate my Eighth Amendment Right(s) for Abusive Sanction.
See: Clear Explanation in Appendix E, Appellant Brief, pages 7, 7A, 8.
Compare U.S. VS. Holguin-Hernandez, Certiorari 5th Cir, 2020 Lexis
1365 No. 18-7739, Appellate 746 Fed. Appx. 403 2018 U.S. App. Lexis
36558 (5th Cir. Tex., Dec. 27, 2018).
Compare: U.S. Vs. Curry 461 F. 3d. 452, 459 (CA 4 2006);
U.S. VS. Vonner, 516 F. 3d. 382, 389 (CA 6 2008) (en banc);
U.S. VS. Castro-Juarez, 425 F. 3d. 430,433-34 (CA 7 2005);
U.S. VS. Sullivan, 327 Fed. Appx. 643, 645 (CA 7 2009);
U.S. VS. Autery, 555 F. 3d. 864, 868-71, (CA 9 2009);
U.S. VS. Torres-DUenas, 461 F. 3d 1178, 1183 (CA 10 2006);
U.S. VS. Gonzalez-Mendez, 545 Fed. Appx. 848, 49, and n. 1 (CA 11 2013);
U.S. VS. Bras, 483 F. 3d. 103, 113, 376 U.S. App. D.C. 1 (CA DC 2007).
Additional application in Sect. 2241 to Beaumont, previously,
and herein applied, accordingly.
In same Sect. 2255, and for recognition of Ineffectiveness and
Inadequacy, producing relevance to this matter at hand, where the
Undersigned, Daniel Thomason Smith, has claimed Ineffective Counsel,
much less Assistance of same, and presumption of prejudice recognized
in Roe VS. Flores-Ortega, 528 U.S. 470 (2000) even when defendant
signed and appeal waiver. I, Smith signed nothing, & you see where
the atty. told my family that a Mr. Phil Lynch (See: Appendix H,
Pages 8-11) filed an appeal, but after numerous calls to the alleged
attorney', and never an answer and never returning any calls with
'left' messages, that the second lie to me from the attorney, 'counsel'
M. Gross. The first, of course, was the denial of ever even considering,
after pleading to him & his asst. during the trial to play the 'Coercion'
APPX. IS LEGAL MALPRACTICE SUIT
SUBSTANTIATION PAGE 12 S. CT. Page 7 IN PART OF CASE 1:18CV635 APPX H

Tape' and hone in on the Exhibit #24, of which he would say every time
to me, that he's "got it: covered", and he did absolutely nothing..See:
Garza VS. Idaho, 791, 405 P. 3d 576, 2017 Ida. Lexis 297 (Idaho Nov.
6, 2017)(2019 U.S. Lexis 1) Supreme Court Decision Note: Lexis Pagination
subject to change pending release of Final published_ version.
139 S. Ct. 738; 203 L. Ed. 2d 77; 2019 U.S. Lexis 1596; 27 Fla. L.
Weekly Fed. S 654 No. 17-026; 10/30/2018 Argued, 2/27/2019; Decided
6-3 Jdgmt. Reversed; 1 Dissent.
Here, I fell clearly below, or the attorney, an objective standard
of reasonableness, (1). See: Appendix H) and (2) The deficiency was
prejudicial to my defense. I had NO defense. APPX. H IS CASE 1:18cv635
'in part' MALPRACTICE
CONCURRENT JURISDICTION
SUIT
Such a title is invoked for authority to adjudicate issues brought
forth previously and forthcoming and as petitioner, I, Daniel T. Smith
aver a serious concern:
I have spent FOUR years incarcerated, with Law Suits filed, LIVE
and Docketed in this very venue, respectfully; Moreover, I have been
Assaulted, Physically, Sexually, (both more than once) and have had
various legal documents destroyed by all 'facilities', and I am finally
in a somewhat (Thank God) safe environment compared to where I have
'resided', and so if by the grace of God, I receive relief in any way
of form, I request and pray, that I NOT be remanded back to any such
court, in the Western District of Texas as I canNOT bear the abuse of
what seems to inevitably occur in these hell holes, and I would lose
my Legal Documents, without a doubt. Additionally, my home away from
here is now Houston, NOT San Antonio.
EMERGENCY INJUNCTION is of necessity pursuant to Title 18 U.S.C.
Section 3142(b) or (c), 3145(c), and/or 3143(a)(2), and THE BAIL
REFORM ACT 18 U.S.C. Sect. 1341 et. seq., provides for the release
of a defendant pending sentencing or appeal, which is what this is,
Sect. 3143 of that Act permits the release of a defendant pending
sentencing if "the judicial officer finds by clear and convincing
evidence the the person is not likely to flee or pose a danger to
the safety of any other person or the community if released under
Sect. 3142(b) or (c)". 18 U.S.C. Sect. 3143(a).
Combine serious application for meritorious grounds for immediate
action is the enclosed Appendix E and its substantive relation to
SUBSTANTIATION PAGE 13 S. CT. Page 8

discussion in part for dramatic reduction of the sentence. Title 18
U.S.C. Section 3553(a), and 3553(a)(2)(A), respectively, AND 18 U.S.C.
Sect. 1341 collaborate for reasons to wit:
Sect. 3582(c)(1)(B) "Modification of an imposed term of
imprisonment" and 3582(c)(2), If sentence range later lowered by the
Sent. Commission. I request that this U.S. Magistrate Judge take a
hard look at.
Both 'pending appeal' and 'imposition of sentence' sojourn for
review as Daniel Thomason Smith has NO severe conduct, and I have NEVER
even been to jail before, and have NO criminal history, despite some
distorted statement and inclusion for an upward departure in my sentence
based upon a crim. hist. of "2". What the heck is this?? Right there
substantiates a reduction. Additionally, I have NO violence, am of
elder status, and the offense(s) for which I was convicted have been
overly Discredited (See Case 1:18CV581) for lack of proof of any sort
of ridiculous Identity Theft, and even accused of making false statements of health care matter is insane and I closed the business for
which this conviction pertains to and I have NO desire or necessity
to re-enter the medical field, and If I am released, it can be Home
Confinement, at the least, AND I am AT HIGH RISK TO/FOR SUSCEPTIBILITY
TO CONTRACTION OF COVID 19. Emphasis Added. CRITICAL TO NOTE: When I
was Blind Sided with this Indictment on Dec. 4, 2013, I spent 3 years
on bond, and even told Alia Moses on June 23, 2016, which was Thursday
before the obvious weekend, during the trial,(which the bonds belong
to me,)(See: Appendix I) that I had to go to a wedding 350 miles from
the trial site, and so she allowed for us to 'relax' on that Thurs.
evening, until Monday, which by the way was the day I was buried, so
the point is that even then I left to journey accordingly, as I did
the same while on bond forever, literally flying from Miami to San
Francisco, to New York to Houston, for 3 years, and the 'Airline &
Hotel Manifests prove such statements; Thus, Daniel Smith is NO threat
to anyone, or fleeing. Jeez.
The P.S.I. for the fact of the matter, is an item I skimmed through
One Time before the sentencing hearing, and I immediately had two
options, tear it up to throw it away, or vomit, so I chose option 1.
Because just like the the F.B.I.'s contorted, fabricated, packs of
SUBSTANTIATION PAGE 14 S. CT. Page 9

Incredible False Witness Bearing Nonsense, like manufactured F.B.I.
302's and ridiculous P.S.I.'s by some foreign completely unknown
'Probation Officer' who could NOT even get it right that I said I
was raised around the law, NOT "by the law", A Huge Difference, and
after I saw that, I knew to not skim through it any more and throw
it away or vomit. Oh, and by the way, Where's My Mens Rea??
RAMBLING VS. WHAT IS 'RIGHT'
When Michael W. Lockhart and his para-legal(s) get a hold of this one,
(Motion) I already know what he will say, which I am rambling, but that's
necessary to get the point across, which I did not say it, You all,
or your predecessors said in the Supreme Court, regarding the Actual
Innocence subject, and to overlook Procedural Default, and "Pursue
Constitutional Claims", and knock off the folly. (Incarceration).
Even De Novo--Actual Innocence Id., 404, 113 S. Ct. 853 122 L. Ed. 2d
203 (citing Sawyer VS. Whitley, 505 U.S. 333, 112 S. Ct. 2514, 120 L.
Ed. 2d. 269 (1992)) Murray VS. Carrier, 477 U.S. 478, 496, 106 S. Ct.
2639, 91 L. Ed. 2d. 397 (1986) and Herrera, 506 U.S. at 404, 113 S. Ct.
853, 122 L. Ed. 2d. 203.
CONCLUSION
The theme has spoken for itself, and NO ONE can prove any such
Fraudulent Activity by me, an owner of the D.M.E. Company, which is
exactly why certain "Rules" for F.R.C.P. have been clearly violated
in this case, and then throw in my MOTION TO COMPEL NEWLY DISCOVERED
EVIDENCE and Year 2020 Synopsis in its ENTIRETY, (Critical) See:
Appendix I) and produce or compel release of my physical body from
the Incapacitation, with OUT 'remand' of my physical body back to any
Western District of Texas venue, for my protection since I am NOT
very good at this jail stuff, (Stupid Nonsense) and so Keep me right
here in the Eastern District of Texas, Beaumont venue, UNTIL I am
released from Incarceration. Please.
PRAYER
That you see IF, Lee McLoy, F.B.I. agent, surreptitiously
violated the prohibition of electronic communications wiretapping
laws when he coerced My Office Manager to call me & he recorded the
call, (Hence: "The Coercion Tape") in March 2012, by NOT yet having
proper authority to pull such a stunt, and that's why the govt. AND
SUBSTANTIATION PAGE 15 S. CT. Page 10

my attorney refused to even fathom playing MY EXCULPATORY EVIDENCE,
(BRADY!) and with, of course, the fact that it was Exonerating,
combined with MY evaded, required by law, Testimony, producing PreMeditated with Intentionality pure FRAUD on the Court, and now you
see why that's why I pled with the attorney to play the tape and
hone in on Exhibit #24 for simple vindication and LACK OF INTENT.
Period. Title 18 U.S.C. Section 2. Where is My Intent???
PREPONDERANCE FOR APPENDIX I
Further preponderance to/for Appendix I is in enclosed Exhibit
"Fraud 911, Letter for Rogatory
Further prayer in redundance, as Issues NEVER opposed in original
Sect. 2241, or in objections, is again, "Manner in which sentence is
executed". (See: Page 7 of this brief AND Appendix, pg's 7, 7A, 8 in
this brief) "Plainly Unreasonable" for revocation of this sentence.
United VS. Miller, 634 F. 3d 841, 843 (5th Cir. 2011)"Assessment of
significant procedural error(s)" "In My district court". I've given
ample errors. United States VS. Fuentes, 906 F. 3d. 322, 325 (5th.
Circuit 2018); Smith's sentence is absurd. United States VS. Warren,
720 F. 3d 321, 326 (5th. Cir. 2013).

ATTESTATION & Cert. of Serv. Page,

3j For Beaumont Div.

SUBSTANTIATION PAGE 16 S. CT. Page 11

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
BEAUMONT DIVISION
•
Daniel Thomason Smith
PETITIONER

V.
Dallas B. Jones
Respondent

)
)
)
)
)
)
)

Case No.

MOTION PURSUANT TO TITLE 28 U.S.C. 2255(e)
Which Contains The Savings Clause
Under 28 USC 2241
Comes Now: Daniel Thomason Smith, pro se, into this Honorable Court,
respectfully, request to proceed with Motion herein, pursuant to 28 U.S.C.
Section 2255(e), which provides a vehicle for this Court to have the
jurisdiction to grant relief under the savings clause provided in 2255(e),
which 2241, states in relevant part, the saving clause of 2255(e) provides:
"28 U.S.C. Section 2255... is the primary means under which a federal
prisoner may collaterally attack the legality of his conviction:-or
sentence." Reyes-Requena V. United States, 243 F. 3d 893, 901 (5th
Cir. 2001). "However, Section 2241 may be utilized by a federal.
Prisoner to challenge the legality of his or her conviction or
sentence, if he/she can satisfy the mandates of the so-called Section
2255 'savings clause'". Id. at 901. The 'savings clause' states:
An applicant for a writ of habeas corpus in behalf of a prisoner who
is authorized to apply for relief by motion pursuant to this section
shall not be entertained if it appears that the applicant has failed
to apply for relief by motion to the court which sentenced him, or
that such court has denied him relief, unless it appears that the
remedy by motion is inadequate or ineffective to test the legality of
his detention. 28 U.S.C. 2255.
INTRODUCTION BASIC FACTS
Daniel Thomason Smith is confined to F.C.. I. Beaumont (Medium) at
P.O. Box 26040 Beaumont, Texas 77720. Fed. I.D. # 29163-380. The sentencing
occurred in San Antonio Division under Case # W 16-CR-039 on the 23rd
day of February, 2017, with finality on March 23, 2017.
A trial occurred from June 20, 2016 through June 27, 2016. On June 27,
2016, a jury 'found' guilt of all counts 1 through 21 for Conspiracy to
SUBSTANTIATION PAGE 17 S. CT. Page 1

Commit Health Care Fraud, Count One. 18 U.S.C. Section 1347 Aiding &
Abetting Health Care Fraud, Count Two, 18 U.S.C. Section 1028 C Aiding
& Abetting Aggravated Identify Theft, Counts 3-13. 18 U.S.C. Section 1035
Aiding & Abetting False Statements Relating to a Health Care Matter,
Counts 14-21.
STANDARD OF REVIEW
THE EFFECT OF ROSEMOND V. UNITED STATES
Petitioner, Daniel Thomason Smith, avers that the decision in Rosemond
V. United States, No. 12-895 (2014), that interpreted the federal statute
of 18 USC 2, Aiding & Abetting, has substantively defined what constitutes
a violation of "INTENT" as required in 18 USC 2 directly affects the
petitioner in two ways to wit:
Since Daniel Thomason Smith, in case # W 16-CR-039, or 6-16-CR-039,
was, and has never knowingly committed a crime, because you cannot commit
an act of a crime without an INTENT, which NEVER entered the mind, or
state of mind/mens rea of Daniel Thomason Smith, then Smith is actually
innocent of the Conspiracy Charge, and ALL charges of Aiding & Abetting
2 through 21, because an INTENT was NON-EXISTENT. (1) The District Court
instructions were, to the jury, erroneous, because the jury NEVER heard
the testimony, which is crucial and a strict requirement of the law (I
WAS NEVER EVEN ALLOWED TO TESTIFY), thereby 'avoiding an irreducible
element or building block of knowing the INTENT of Daniel Thomason Smith,
in light of the Supreme Court decision in Rosemond, AND (2) Petitioner,
stands convicted of a NONexistent offense causing effect that the Judgment
& Committment must be ruled rwithout uncertainty, null & void, vacated,
and invalidated.
The federal aiding & abetting statute, which derives from common law
standards for accomplice liability, has two components. A person is liable
under "2" only if he (1) Takes an affirmative act in furtherance of the
underline offense, (2) With the intent to facilitate that offense commission.
Smith never committed either of the two, or conspired to an, act of giving
"directives" to commit fraudulent schemes...See Procedural History. In
answering the second question, the Court stated (Rosemond) In addition to
conduct extending to some part of the crime, aiding & abetting requires
"INTENT" extending to the whole crime. The defendant must not just associate
himself with the venture but also participate in it as something that he
wishes to bring about and seek by his actions to make it succeed. Nye &
SUBSTANTIATION PAGE 18 S. CT.

page 2

Nissen V. United States 336 U.S. 613,619. That requirement is satisfied
when a person "actively" participates in a criminal venture with FULL
KNOWLEDGE of the circumstances constituting the charged offense.
The government states that I have admitted (Smith) to knowledge of
conduct of fraudulent activity and giving 'directives' to the coconspirators to 'create' and 'manufacture' fraudulent claims and schemes. .
That is an absolute FALSEHOOD AND LUDICROUS. Smith distinctly recalls
the F.B.I. Agent Lee McLoy relishing in his intimidating tactics on March
15, 2012, in the home of Daniel Smith, so whatever some F.B.I. 302 states
is erroneous hogwash, because when Lee McLoy persisted with his redundant
questions until Smith said, "what do you want"?, and he said, "I want you
to say you did do this or that", and Smith said, "OK" as Lee McLoy leaned
up to adjust his gun and recorder, and forcibly use his voice inflection
and body language to get Smith to admit to something, which was already
stated that Smith had NO knowledge of fraud... So the threats, duress, and
coercion he placed Smith under, in the home of Smith, after Smith gladly
allowed 2 and a half hours earlier, became an obnoxious over kill, until
Smith said, "I have to go", and he threatened Smith with, "I have enough
to hall you in right now", and Smith said, "then why don't you?" for him
to understand he had absolutely nothing and had NO jurisdiction for "hauling
anyone in". Emphasis Added. All of the preponderance of evidence, and
circumstancial evidence, and he said, she said heresay is IRRELEVANT WITH
OUT the establishment of Smith's true mens rea. Smith NEVER KNOWINGLY
committed any crime, and never allowed to testify, which is a strict
requirement of the law, so the conviction is impossibility. See the
-Procedural History.
JURISDICTION
The only district that may consider a habeas corpus challenge
pursuant to Section 2241 is the district' in which the prisoner is confined
at the time he files his Section 2241 petition. Rumsfeld V. Padilla, 542
U.S. 426, 442-43, 124 S. Ct. 2711, 159 L. Ed. 2d 513 (2014); Lee V. Wetzel,
244 F. 3d 370, 375 n.5 (5th Cir. 2001). Petitioner is confined in the
Eastern District of Texas, in Beaumont, Texas. Thus, Beaumont Division has
jurisdiction over the petition as well as the prisoner in this matter.
Daniel Smith, respectfully requests this Honorable Court to review
his contention under the well established precedent of Haines V. Kerner
404 U.S. 519,520 (1972) wherein the court construes a pro se brief liberally.
Windland V. Quarterman, 578 F. 3d 314 (5th Cir. 2009).
SUBSTANTIATION PAGE 19 S. CT.
Page 3

INTRODUCTION TO AFFIDAVIT OF PROCEDURAL HISTORY & DISCUSSION
The attorney, Michael C. Gross, left an awful feeling in my mind,
heart, and soul for understanding who he was actually representing on
February 11, 2016, to the point where I was deranged and perplexed, pursuant
to the actual facts within this Affidavit, because I could not accept
some 'plea agreement' (contradiction to true facts) and consequently
cornered, due to my lack of knowledge at the time, under threat, duress,
and coercion, to sign a plea of not guilty and proceed to trial, because
what I should have done was simply to have Accepted For Value and returned
it (Charging Instrument, AKA-Indictment) for full settlement and closure
using my private exemption in exchange for the bonds and the release of
the property to me, which I have done and is in the hands of District Clerk
Jeanette J. Clack in San Antonio as she signed for it via Certified Mail
on January 26, 2018. The "Debt"was discharged by me for the Ens Legis,
the Public Debtor. Emphasis Added.
The government's (a corporation be it known) THEORETICAL PRESUMPTIONS,
FALSEHOODS, AND PLOTS by witnesses, co-conspirators, and conspirators, etc.
lead to'the prosecutors strabismic (FAILING TO PERCEIVE CLEARLY OR
ACCURATELY: NOT BASED OtHSTRAIGHT CLEAR OBSERVATION, OR ANALYSIS) attack
upon Daniel Smith, and at best an ambiguous (UNCERTAIN OF MEANING OR
SIGNIFICANCE OR OF POSITION IN RELATION TO SOMETHING OR SOMEBODY ELSE.)
perception of the true nature of Daniel Thomason Smith's lack of presence
and involvement with the company DTS Medical Supply Corp.
In the trial, the prosecutors stated Smith and Kate (SEE PROCEDURAL
HISTORY) Kelly Tuorila relinquished their provider number with Medicare,
which is TOTALLY FALSE: Kate told me in April of 2010, SHE relinquished
the provider number, as I knew NOTHING of the subject, as I WAS NEVER
THERE. As clearly demonstrated in THE PROSECUTORS EXHIBIT 24, Kate held
all of the responsibility for all of the different things relating to
Medicare, and since 2003 she stated "I am the Compliance Officer".
Since I was NEVER allowed to testify, which is a strict requirement
of the law, and concluded guilt from ONLY CIRCUMSTANTIAL EVIDENCE, WITHOUT
knowing my state of mind/mens rea, and all of the pure heresay and
accusations by employees and/or whoever else, and Robin and Kate, who
were driven by monetary commissions, and ALWAYS asking me for more money,
has lead to a growing hypocrisy of fairness and DUE PROCESS for my
Presumption of and Actual Innocence.
SUBSTANTIATION PAGE 20 S. CT.
Page 4

DISCUSSION
F.B.I. Agents are typically sociopaths. This is a profile that lends itself
to corruption and the stresses and rigor, and quotas, of F.B.I. work.
F.B.I. Agents lie, cheat, steal, and plant evidence. They are experts at
taking any information they are provided and turning it into reasonable
suspicion or probable cause. They are practiced at intimidation, (Smith
saw firsthand March 15, 2012) and consider any gesture other than complete
cooperation, a threat or challenge to their authority. Their job is
'supposed' to be 'to just investigate', (ask questions); However, F.B.I.
Agent Lee McLoy's manipulations and planting of words in the co-conspirators
(See Procedural History) mouths, and others, via threat, duress, and
coercion, and the like, despite his (Lee McLoy's) testimony on the witness
stand on Thurs. eve. June 23, 2016, when he vehemently denied the "set
up" questions from Greg Surovic (prosecutor) to quash the intimidation
factors, which Lee McLoy employed upon the co-conspirators and others.
(See the sneaky behavior of Peter Strzok, Lisa Page, Jim Comey, Andrew
McCabe, Rod Rosenstein, Hillary, to name a few).
The emotions of the jurors were aroused and effectively played upon
by the 'professional' prosecutors to stir a belief that Daniel Smith was
in control of D.T.S. Medical Supply Corp.(SEE EXHIBIT 24; CRITICAL FACTS)
by displaying Smith's bank accounts, AND creating dialogue, for the record
that Smith told employees to open accounts at Smith's bank, to concoct
a distorted belief that Smith was hiding something, when the fact of the
matter is Smith simply and absolutely told others to open an account at
the same bank to simplify transfers of funds, (which Kate handled, See
Procedural History) when others needed money. Smith NEVER committed any
crime, or knowingly committed any crime. Emphasis Added.
Money was a subject for the prosecutors to play upon the emotions of
the jurors, by attempting to concoct an accusation that Smith paid "Kickbacks" to someone. Smith NEVER paid such a thing or knew of anyone else
providing such an idea. Smith did NOT NEED to do any such thing.
The government contends that Smith directed the Real Estate Agent,
Juan Camacho, to destroy all paperwork at the time of the sale of the
building, owned by Smith, (See Procedural History) which IS SO FALSE,
BECAUSE THE GOVERNMENT KNEW IF Smith was trying to conceal paperwork
SUBSTANTIATION PAGE 21 S. CT. Page 5

(THAT IS ALREADY ON FILE (with Medicare Sr:Medicaid & Private Ins.)
because Kate faxed ALL paperwork INCLUDING Physicians orders AND signatures
to' Medicarel Medicaid,'or Private Ins. for PRE-AUTHORIZATION) THEN THE
GOV'T WOULD HAVE CHARGED ME WITH OBSTRUCTION OF JUSTICE. Emphasis Added.
Juan Camacho's testimony clearly states Smith NEVER commanded destroying
of any paperwork, and proves Smith NEVER was out to circumvent or deceive
anyone. Further proof that was NEVER an investigation of the company in
2010, is evident because Smith bought a brand New Lexus SUV, right off
of the showroom floor, in 2010, and spent $25,000 cash for a medical
device for an investment. Smith would not have, nor would you spend $100,
000.00 if you knew there was an investigation of your former company and
you may need to hire legal counsel.
The government contends Kate told Smith and Robin numerous times that
the different things Smith & Robin were doing It would get us in trouble",
when the fact of the matter is Smith NEVER knew or directed anyone to
"devise schemes and false bill and hide things to absorb profits".
The government contends Smith "knew" of the enrollment forms stating
all of the legal jargon, when the fact is Smith NEVER REPEAT NEVER read
any enrollment forms from Medicare/or Medicaid and did NOT know to keep
any such paperwork for 5 years. (SEE PROCEDURAL HISTORY).
The government's pure set up, in and of itself, to make sure Kate
was not severed from Smith in a trial, was of course, to paint the picture
of Smith's involvement (False) with fraud. By Kate and Smith sitting
within 5 feet of each other in the trial was an effective plot by the gov't
for the jury to stare at and then halling Kate into the sentencing hearing
AND having Kate sit 2 feet from Smith AGAIN, when she had NO other business
at all to tend to, was proof of a devised scheme by the gov't to intimidate
Smith with some weird concoction that Smith & Kate were a team. The trial
was 'designed' to illustrate a fabricated picture, when the fact is Smith
had no involvement with the company, D.T.S. Medical Supply Corp. or whatever occurred with fraudulent claims.
The government contends by utilizing of approx. 12 emails from Smith
that were nothing more than instruction, per Kate, to a friend at the time
to assemble and/or deliver equipment. Just like the money, emails, and
SUBSTANTIATION PAGE 22 S. CT.

Page 6

and apparent remittance of payments (pay schedules)from Medicare or Medicaid,
which Smith never read or looked at, were items of NO bearing or corroberation
to Smith's committal or even an intent to commit any crime, whatsoever, as
Smith NEVER knew of 'false billing, different billing, alternate billing,
and the like.'
Kate knew down to the minute, in August of 2010 when Smith sold the
building, (because Smith told Kate whenever Smith sold the building, he
would gladly give her half of the profits) but that was also by selling the
business, because upon 'closing' at the Title Company, as soon as Smith
put the key in the ignition of his car upon exiting the Title Company, Kate
called Smith and said, "where's my money?" Smith did not give her any
money because there was no money 'out of the deal' to give. She WAS VERY
DISGRUNTLED. Emphasis Added. Kate called Smith again one month later,
pressing for money. Point being, Smith was known as "deep pockets, or the
money man and others were not receiving dinero, frustration was prevalent.
See John 2:13-25, key verse 17. Also 1 Timothy 6:9-11.
The government contends 3.5 Million Dollars of fraud occurred, which
is DISCREDITED. For example, Smith DISTINCTLY REMEMBERS Norma Perez asking
for assistance with Physicians to prescribe powered wheelchairs. to patients
that Norma derived via networking with nurses, home health personnel, etc.,
and she had Smith call Physicians to ask for their approval for equipment,
which was often successful because Norma told Smith in gratitude. Smith
DISTINCTLY REMEMBERS Jorge Garcia (George) providing AT LEAST 200 POWERED
WHEELCHAIRS to patients in San Antonio, Austin, Tilden, Laredo, etc...
George had a 'base' for patients in and throughout West Texas and New
Mexico. Smith went with George on several trips to deliver the equipment to
the patients. While on the trips, George asked for assistance with certain
Physicians for their prescriptions for patients who needed George's help
for their mobility needs. Smith made calls to those physicians, (successfully)
and physically visited with many of those physicians while on delivery
trips with George. The strabismic attacks by the government hold NO leverage
whatsoever.
Daniel Smith, respectfully requests this Honorable Court to review
his contention under the well established precedent of Haines V. Kerner
404 U.S. 519,520 (1972) wherein the court construes a pro se brief liberally.
Windland V. Quarterman, 578 F. 3d 314 (5th Cir. 2009).
SUBSTANTIATION PAGE 23 S. CT.

Page 7

CONCLUSION
'When I was lured to sojourn inside 'their' jurisdiction in the
hearing in I believe in March of 2016, when Alia Moses threatened me
with Incarceration for 72 hours, which she knew that would pull the
trick, since I had never been to jail before, and so I then learned
the law, as U.S. DOJ Attorneys, Betty Richardson and Richard Ward, in
the U.S. District Court (Idaho 1993) clearly stated, "The United States
and its co-business partners are debtors to the Secured Party Creditor,
(which I have clearly outlined that I have properly 'registered' myself as such and can prove to anyone) ((See: Appendix I entitled
LEGAL EFFICACY FOR PLAUSIBLE CERTIORARI BY THE SUPREME COURT AND ALL
of the PROOF OF CLAIM(S)) AND as I am the Creditor, not only over My
DEBTOR, DANIEL THOMASON SMITH(C) TRUST, Ens Legis, but also over The
United. States. I am the legal title holder over the registered assets
(things) to which I am the Equitable Titleholder. I am the primary
creditor. So if the United States has other creditors, like the international Bankers, those cannot jump to the front of the line. Their
claims are subordinate to my claims, since I am registered... That
being established, this whole thing should be DISMISSED. Period.
So IF I state the above so vehemently, then why am I 'wrapped
in this turmoil within the Jurisdiction?? Because I had to go and
learn this stuff, AND to prove MY Point of all of the Lawsuits, and
the Sect. 2241, and all of the Briefs, and so on....((And don't think
Case 1:18CV635 is only the Legal Malpractice Suit, since there's the
whole 'other' side within that Case,Number)) because you nor I can be
(Lawfully) convicted of a crime which you or I did NOT KNOWINGLY do
or commit. You know that I am correct.
Watch this. Please see my original petition in U.S.D.C. Beaumont
and see page 5-7. See where the Indictment is a bunch of Propaganda
full of hot air because when Kate (Office Mgr. who ran the whole show)
began a process of. billing Medicare, Medicaid, or Priv. Ins., she
faxed, as she would tell me, 18 to 21 pages to the Insurance first
for Pre-Authorization. Emphasis Added. The A.U.S.A's. knew this or
they would have charged me with Obstruction of Justice, AND the fact
that the Realtor, Juan Camacho, who sold my building which was utilized
for the business, NEVER testified, as I knew he wouldn't, to anything
NEGATIVE about me, A.K.A. me asking him to destroy documents from
PAGE 1

APPENDIX M

the business, because as he said, "that was not a motive at all". Now
see where I spent in excess of $100,000.00 and at least $30,000 in
cash for a medical device for an investment, and I bought a brand new
Lexus SUV right off the dang show room floor!! Point being, there was
NO Investigation of anything or I would NOT have spent money. Duh!!
Then, we come back to My Mens Rea which has never been demonstrated.
Here it is. This is an Affidavit. Did ya' see where the Attorney for
my representation, NOT my defense, was caught Lying to me? If he would
have played "The Coercion Tape" and pounced on the Exhibit #24, you
would not be reading this today, AND why didn't the govt. play the
Coercion Tape?? Answer, because they too knew that it would exonerate
me from knowledge of Fraud AND the Exhibit #24, as I invoked for
utilization under the Doctrine of Incontrovertible Physical Facts, to
prove my "Never at the Business" and the fact that I did NOT even know
how to turn on the computer. I did not even have a key to the front door!
All of this is Pre-Meditated With Intentionality Fraud on the Court,
and now on the U.S.D.C. in Beaumont for also deliberately evading My
Exculpatory Evidence, which is the Brady Violation. Bing.
The following is a true story.
After the Dec. 4 2013 Indictment against my name, the F.B.I. had
a Blockbuster Raid of the company knownthroughout the country who was
doing the exact same thing as my company, and their home office was
25 miles from my home. So here's this Completely Dropped by the gov't
enormous, fully covered by the media, massive volume, in all Fifty
States, F.B.I. raided Home Head Quartered Business in South Texas,
and completely governmentally shutdown that company, which produced
gross receipts of 80 (EIGHTY) to 90 (Ninety) Million Dollars Annually,
(Mine was 1.2 Million Annually) and I met with the C.E.O. and C.F.O.
of that business before and after the notorious F.B.I. Raid, which
was during the 'window' of my Indictment saga, that led to the staged
trial, one-sided debacle, set up to convict me withOUT my knowledge
of Fraud, nor could anyone prove such knowledge, nor could I Identify
any of the' 'victims', who I am vicariously liable for theft of them,
nor did I run around tellin' people to steal peoples identity to bill
Medicare, gees, gimme a break, (I had, more testimonials of people who
I provided wheelchairs for their Physicians who called me and the
'people who were livid when they found out that I was under Indictment
PAGE 2

APPENDIX M

and I told the attorney they needed to be subpoenaed and he did nothing,
and when he says "The assertion is untrue" regarding his ignorance
(denial) to play my Exculpating Tape and hammer the Exhibit #24, is,
something a travesty, because it's the same reason the gov't wouldn't
play the tape either, (Brady) and of course, the attorney because the
U.S. Attorneys paid him to skirt the subject. (Michael W. Lockhart,
A.U.S.A. doesn't like all of this 'rambling' because he's allergic to
the truth) So all of this Identity Theft and and making false statements
of a Health Care Matter should be VOIDED AND AN ABSOLUTE BARE MINIMUM
OF A DRAMATIC SENTENCE REDUCTION because as Congress is 'onto' right
now is the'violation of my SIXTH Amendment Right(s) for Massive
Sentence Enhancement, which in my case is the 5 years that the clowns
oh, I'm sorry, the A.U.S.A's. were .'offering' me in the hearing in
2014, which I could NOT 'accept' because that was plea for guilt and
how can you or I plead to something which you or I-did NOT do?? But
the point is that 5 years should have been the max. OR the fact of
the matter being that I have already DISCHARGED the debt and the
Bonds need to be relinquished back to me, Daniel Thomason Smith. I rest.
PRAYER
I pray that what is brought forth in these documents is realized
for what is morally, spiritually, ethically, constitutionally, and/or
otherwise, because even statutorally, I should be relieved of this
insane mess, because the Constitution Trumps all statutes. See:
Page 4 of SUBSTANTIATION OF PETITION FOR
AND WHERE YOU ALL SAID MY PROCEDURAL DEFICIENCIES ARE TO BE OVER
LOOKED AND STOP INCARCERATING INNOCENT PEOPLE.

END
PAGE 3

APPENDIX M

